Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




NEW YORK IMPROPERLY CLAIMED
  MEDICAID REIMBURSEMENT
FOR ORTHODONTIC SERVICES TO
      BENEFICIARIES IN
      NEW YORK CITY


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      October 2013
                                                      A-02-11-01003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 New York State claimed at least $7.8 million in unallowable Medicaid reimbursement for
 orthodontic services provided to beneficiaries in New York City.

WHY WE DID THIS REVIEW

Federal law authorizes Medicaid, which covers orthodontic services for children with severe dental
conditions. Recently, in a hearing on government efforts to address Medicaid fraud, Congress
noted its concerns on waste, fraud, and abuse of certain Medicaid program services, including
orthodontic treatment.

The objective of this review was to determine whether the New York State Department of Health
(State agency) claimed Federal Medicaid reimbursement for orthodontic services provided to
beneficiaries in New York City that complied with Federal and State requirements.

BACKGROUND

In New York State, the State agency administers the Medicaid program. The New York State
Medicaid Orthodontic Program (program) provides orthodontic services to Medicaid-eligible
beneficiaries with severe dental defects. The State agency administers the program for the entire
State except for New York City, where the local Department of Health and Mental Hygiene
(DOHMH) administers the program.

DOHMH oversees three State agency-approved screening centers that evaluate beneficiaries’
program eligibility. If determined to be eligible for the program, beneficiaries are approved to
receive orthodontic treatment for 1-year service periods. The screening centers also conduct
annual reviews to determine the need to continue treatment for additional 1-year periods.

HOW WE CONDUCTED THIS REVIEW

For calendar years 2007 through 2009, the State agency claimed Federal Medicaid
reimbursement totaling approximately $66 million for 658,612 claims for program services
provided to 73,539 beneficiaries in New York City. Of these beneficiaries, we selected a simple
random sample of 100 beneficiaries and reviewed corresponding claim documentation
maintained by DOHMH, the assigned screening center, and the treating orthodontist (provider).

WHAT WE FOUND

The State agency claimed Federal Medicaid reimbursement for orthodontic services provided to
beneficiaries in New York City that did not always comply with Federal and State requirements.
Of the 100 beneficiaries in our random sample, the State agency properly claimed Medicaid
reimbursement for 57 beneficiaries. However, for the remaining 43 beneficiaries, the State
agency claimed Medicaid reimbursement for 1 or more services that were unallowable.




New York City Medicaid Orthodontic Claims (A-02-11-01003)                                           i
Specifically, the State agency claimed:

    •   services to 24 beneficiaries that were provided outside an approved service period,

    •   services to 18 beneficiaries that were not documented, and

    •   services to 11 beneficiaries that were not provided.

(The total exceeds 43 because we found more than 1 deficiency for services provided to
10 beneficiaries.)

On the basis of our sample results, we estimated that the State agency claimed at least
$7,780,626 in unallowable Federal reimbursement.

These deficiencies occurred because the State agency and providers did not ensure that cases
were reviewed annually to determine the need for continuing care and that services were
documented. Further, the State agency provided limited guidance to providers on State
regulations requiring orthodontic care to be reviewed annually to determine the need for
continuing care. Finally, the State agency did not (1) sufficiently educate providers regarding
their responsibilities to ensure that their patients receive annual clinical reviews at screening
centers and (2) maintain adequate documentation.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $7,780,626 to the Federal Government and

    •   strengthen guidance and provider education activities related to authorizing continuing
        treatment and maintaining adequate documentation.

DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, the State agency did not indicate concurrence or
nonconcurrence with either of our recommendations. Regarding our first recommendation, the
State agency stated that its Office of Medicaid Inspector General would “review and recover
funds as appropriate.” The State agency did not directly address our second recommendation.
Rather, it described the transfer of program oversight of New York City orthodontic cases from
DOHMH to the State agency as well as revisions to program regulations. These program
changes occurred after the completion of our fieldwork.




New York City Medicaid Orthodontic Claims (A-02-11-01003)                                           ii
                                                       TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

         Why We Did This Review ................................................................................................1

         Objective ...........................................................................................................................1

         Background .......................................................................................................................1
               Medicaid Program .................................................................................................1
               New York State’s Medicaid Orthodontic Program ...............................................1
               New York City’s Orthodontic Rehabilitation Program .........................................2

         How We Conducted This Review .....................................................................................2

FINDINGS ...................................................................................................................................3

         Services Not Authorized ...................................................................................................3

         Services Not Documented .................................................................................................4

         Services Not Provided .......................................................................................................4

RECOMMENDATIONS .............................................................................................................5

DEPARTMENT OF HEALTH COMMENTS ...........................................................................5

APPENDIXES

           A: Audit Scope and Methodology ..................................................................................6

           B: Statistical Sampling Methodology .............................................................................8

           C: Sample Results and Estimates ...................................................................................9

           D: Department of Health Comments ..............................................................................10




New York City Medicaid Orthodontic Claims (A-02-11-01003)                                                                                         iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Federal law authorizes Medicaid, which covers orthodontic services for children with severe dental
conditions. Recently, in a hearing on government efforts to address Medicaid fraud, Congress
noted its concerns on waste, fraud, and abuse of certain Medicaid program services, including
orthodontic treatment. 1

OBJECTIVE

Our objective was to determine whether the New York State Department of Health (State
agency) claimed Federal Medicaid reimbursement for orthodontic services provided to
beneficiaries in New York City that complied with Federal and State requirements.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan.

In New York State, the State agency administers the Medicaid program. The State agency uses
the Medicaid Management Information System (MMIS), a computerized payment and
information reporting system, to process and pay Medicaid claims.
                                                                                      MALOCCLUSION
New York State’s Medicaid Orthodontic Program                          The term malocclusion is used to describe teeth
                                                                       that do not fit together properly.
The New York State Medicaid Orthodontic Program
provides orthodontic services to Medicaid-eligible
beneficiaries with severe dental defects known as
malocclusions. (See accompanying text box.) The
State agency administers the program for all social
services districts except New York City. 2




1
 “Is Government Adequately Protecting Taxpayers from Medicaid Fraud?” Joint hearing before the Subcommittee
on Health Care, District of Columbia, Census, and the National Archives; and the Subcommittee on Regulatory
Affairs, Stimulus Oversight, and Government Spending of the Committee on Oversight and Government Reform,
House of Representatives, 112th Congress, April 25, 2012.
2
 In New York State, each county is considered its own social services district, except the five counties that make up
New York City, which are considered a single district.


New York City Medicaid Orthodontic Claims (A-02-11-01003)                                                           1
State regulations limit program eligibility to Medicaid beneficiaries under age 21 who exhibit
severe dental defects that affect oral health, function, and esthetics (i.e., malocclusions). 3 In
addition, State regulations authorize orthodontic care for Medicaid reimbursement by the State
agency 4 and require all cases accepted for orthodontic care to be reviewed annually for progress
to determine the need for continuing care. 5, 6

New York City’s Orthodontic Rehabilitation Program

In New York City, the Department of Health and Mental Hygiene (DOHMH) administers the
Medicaid Orthodontic Program, known as the Orthodontic Rehabilitation Program (program).
To determine program eligibility, Medicaid orthodontists refer beneficiaries to one of three State
agency-approved screening centers overseen by DOHMH. The screening centers perform a
clinical exam and, if the beneficiary is determined to be eligible for the program, DOHMH
approves an initial 1-year service period. The screening centers also conduct annual reviews to
determine the need to continue treatment for additional 1-year periods. According to DOHMH
policies and procedures, treating orthodontists (providers) are responsible for ensuring that their
patients receive an annual clinical review from the screening centers to authorize additional
1-year service periods.

HOW WE CONDUCTED THIS REVIEW

For calendar years 2007 through 2009, the State agency claimed Federal Medicaid
reimbursement totaling approximately $66 million for 658,612 claims for program services
provided to 73,539 beneficiaries in New York City. Of these beneficiaries, we selected a simple
random sample of 100 beneficiaries and reviewed corresponding claims documentation
maintained by DOHMH, the assigned screening center, and the treating orthodontist (provider).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains
details of our statistical sampling methodology, and Appendix C contains our sample results and
estimates.



3
    10 NYCRR section 85.45(b) (2011).
4
    18 NYCRR section 506.4(a).
5
  18 NYCRR section 506.4(b) (2011). In 2012, the State amended section 506.4(b) and removed the annual review
requirement from the regulation. New York State Register, I.D. No. HLT-32-12-00017-E (Aug. 8, 2012).
6
 Except in some circumstances (e.g., beneficiaries with a cleft palate), orthodontic care is covered for a maximum
period of 3 years of active treatment and 1 year of retention care (18 NYCRR § 506.4(c)).


New York City Medicaid Orthodontic Claims (A-02-11-01003)                                                            2
                                                     FINDINGS

The State agency claimed Federal Medicaid reimbursement for orthodontic services provided to
beneficiaries in New York City that did not always comply with Federal and State requirements.
Of the 100 beneficiaries in our random sample, the State agency properly claimed Medicaid
reimbursement for 57 beneficiaries. However, for the remaining 43 beneficiaries, the State
agency claimed Medicaid reimbursement for 1 or more services that were unallowable.

Specifically, the State agency claimed:

       •   services to 24 beneficiaries that were provided outside an approved service period,

       •   services to 18 beneficiaries that were not documented, and

       •   services to 11 beneficiaries that were not provided. 7

On the basis of our sample results, we estimated that the State agency claimed at least
$7,780,626 in unallowable Federal reimbursement.

These deficiencies occurred because the State agency and providers did not ensure that cases
were reviewed annually to determine the need for continuing care and that services were
documented. Further, the State agency provided limited guidance to providers on State
regulations requiring orthodontic care to be reviewed annually to determine the need for
continuing care. Finally, the State agency did not (1) sufficiently educate providers regarding
their responsibilities to ensure that their patients receive annual clinical reviews at screening
centers and (2) maintain adequate documentation.

SERVICES NOT AUTHORIZED

Under Office of Management and Budget (OMB) Circular A-87, to be allowable, costs must be
authorized or not prohibited under State laws or regulations. 8 New York regulation requires that
all cases accepted for orthodontic care (i.e., determined eligible for the program) be reviewed
annually for progress to determine the need for continuing care. 9 Therefore, if the annual review
is not performed or furnished on an annual basis, services are not authorized under the State’s
regulations.

According to DOHMH policies and procedures, providers are responsible for ensuring that their
patients receive annual clinical reviews at the screening centers. In letters to providers notifying
them that a patient is authorized to receive treatment, DOHMH states this requirement. Further,
DOHMH included a space on its “Medicaid Annual Review Request” form for the provider to

7
    The total exceeds 43 because we found more than 1 deficiency for services provided to 10 beneficiaries.
8
 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment A,
section C.1.c. (2 CFR Part 225, App. A, § C.1.c.).
9
    18 NYCRR section 506.4(b) (2011).


New York City Medicaid Orthodontic Claims (A-02-11-01003)                                                     3
indicate the appropriate period for review (e.g., “2nd yr.”). Finally, according to DOHMH
program guidance issued to New York City providers:

           Cases must be reviewed annually. The treating orthodontist who wants to continue a
           Medicaid patient’s orthodontic treatment must request and ensure their
           Medicaid patient’s annual review by submitting a completed “Medicaid Annual
           Review Request” form … to the appropriate [screening center]. 10

For 24 of the 100 beneficiaries in our sample, orthodontic services were provided outside of a
1-year service period approved by 1 of the screening centers. For 22 of these beneficiaries,
providers billed for treatment when no annual review was performed to determine whether the
beneficiary continued to need treatment (i.e., providers had not received approval from a
screening center to continue services). For the remaining two beneficiaries, annual reviews were
performed; however, providers submitted claims for active orthodontic care outside of an
approved service period. Therefore, these services were not authorized.

These deficiencies occurred because providers did not ensure that beneficiaries were authorized
by the screening centers for continued treatment after a 1-year service period. Some providers
stated that they instructed beneficiaries to schedule appointments with a screening center for an
annual review but did not ensure that the beneficiaries went. Others stated that they expected the
screening centers to schedule appointments with beneficiaries.

SERVICES NOT DOCUMENTED

Federal and State regulations require that services claimed for Federal Medicaid reimbursement
be documented. 11, 12

For 18 of the 100 beneficiaries in our sample, we found that the provider did not have
documentation to support orthodontic services billed to Medicaid. Specifically, providers did not
provide documentation of quarterly adjustments to orthodontic appliances (braces) for 11
beneficiaries and diagnostic casts, photographs, or X-rays taken for 7 other beneficiaries. This
occurred because providers did not maintain documentation to support services billed for
Medicaid reimbursement.

SERVICES NOT PROVIDED

CMS’s State Medicaid Manual specifies that Federal financial participation is available only for
allowable actual expenditures made on behalf of eligible beneficiaries for covered services
rendered by certified providers. 13

10
  DOHMH Physically Handicapped Children’s Program. Orthodontic Rehabilitation Program, March 1996
(Revised December 2010); p. 10.
11
     42 CFR section 431.107; CMS, State Medicaid Manual, section 2500.2.A.
12
     18 NYCRR section 515.2(b)(6).
13
     CMS, State Medicaid Manual, section 2497.1.


New York City Medicaid Orthodontic Claims (A-02-11-01003)                                           4
For 11 of the 100 beneficiaries in our sample, the provider claimed orthodontic services that
were not provided. Specifically, for six beneficiaries, providers claimed Medicaid
reimbursement for quarterly adjustments to braces that had already been removed or had not yet
been inserted. For five other beneficiaries, the provider claimed orthodontic services even
though the beneficiary missed their office appointment. This occurred because the providers did
not ensure that only claims for actual services provided were submitted for Medicaid
reimbursement.

                                         RECOMMENDATIONS

We recommend that the State agency:

     •   refund $7,780,626 to the Federal Government and

     •   strengthen guidance and provider education activities related to authorizing continuing
         treatment and maintaining adequate documentation.

                            DEPARTMENT OF HEALTH COMMENTS

In written comments on our draft report, the State agency did not indicate concurrence or
nonconcurrence with either of our recommendations. Regarding our first recommendation, the
State agency stated that its Office of Medicaid Inspector General would “review and recover
funds as appropriate.” The State agency did not directly address our second recommendation.
Rather, it described the transfer of program oversight of New York City orthodontic cases from
DOHMH to the State agency as well as revisions to program regulations. 14 For example, all new
orthodontia cases in both New York City and throughout the State are included in the State’s
Medicaid managed care benefit package.

The State agency’s comments appear in their entirety as Appendix D.




14
  Effective October 1, 2012, DOHMH ceased operating the New York City program. As of this date, the oversight
of all New York City orthodontic cases was transferred to the State agency’s Office of Health Insurance Programs.
This transition occurred after the completion of our fieldwork.


New York City Medicaid Orthodontic Claims (A-02-11-01003)                                                           5
                       APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 658,612 claims for orthodontic services, totaling $131,819,708 ($65,910,208
Federal share), provided to 73,539 beneficiaries in New York City during calendar years 2007
through 2009.

We did not assess the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only the internal controls that pertained directly to our objective.
Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the MMIS file for our audit period, but we did not assess the completeness of
the file.

We conducted our audit from November 2010 to July 2012 and performed our fieldwork at the
State agency’s offices in Albany, New York; the MMIS fiscal agent in Rensselaer, New York;
DOHMH’s offices in New York, New York; and at 3 screening centers and 50 orthodontic
providers throughout the New York City metropolitan area.

METHODOLOGY

To accomplish our objective, we:

       •   reviewed applicable Federal and State laws, regulations, and guidance;

       •   held discussions with State agency officials to gain an understanding of the Medicaid
           Orthodontic Program;

       •   held discussions with DOHMH officials to gain an understanding of the agency’s policies
           and procedures related to its administration of the Orthodontic Rehabilitation Program;

       •   ran computer programming applications at the MMIS fiscal agent that identified a
           sampling frame of 73,539 beneficiaries in New York City 15 for whom the State agency
           was reimbursed for orthodontic services totaling $131,819,708 ($65,910,208 Federal
           share);

       •   selected a simple random sample of 100 beneficiaries 16 from the sampling frame of
           73,539 beneficiaries, and, for the 100 beneficiaries:

               o interviewed the associated provider to gain an understanding of how the provider
                 billed orthodontic services to the Medicaid program and


15
  We used beneficiaries’ residence addresses on the MMIS to identify those located in the five counties that make
up New York City.
16
     We reviewed all claims during calendar years 2007 through 2009 for each beneficiary in our sample.


New York City Medicaid Orthodontic Claims (A-02-11-01003)                                                           6
            o reviewed corresponding claims documentation maintained by DOHMH, the
              assigned screening center, and the provider, including notes on whether the
              beneficiary missed their appointment; and

    •   estimated the unallowable Federal Medicaid reimbursement in the population of 73,539
        beneficiaries.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




New York City Medicaid Orthodontic Claims (A-02-11-01003)                                       7
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid beneficiaries in New York City (Medicaid beneficiaries)
who received orthodontic services during our January 1, 2007, through December 31, 2009, audit
period.

SAMPLING FRAME

The sampling frame was an Excel file containing 73,539 Medicaid beneficiaries who received
orthodontic services totaling $131,819,708 ($65,910,208 Federal share). The Medicaid claims
were extracted from the claim file maintained at the MMIS fiscal agent.

SAMPLE UNIT

The sample unit was a Medicaid beneficiary who received orthodontic services for which the
State agency claimed Federal Medicaid reimbursement. One Medicaid beneficiary may have
had multiple orthodontic services claimed for reimbursement.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 Medicaid beneficiaries.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the 73,539 Medicaid beneficiaries. After generating 100 random
numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement
paid. We used the lower limit of the 90-percent confidence level to estimate the overpayment
associated with the unallowable claims.




New York City Medicaid Orthodontic Claims (A-02-11-01003)                                      8
                       APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                             Sample Results: Federal Share Amounts

                                                                       Beneficiaries
                                                                                        Value of
Beneficiaries        Value of          Sample               Value of      With
                                                                                       Unallowable
 in Frame             Frame             Size                Sample     Unallowable
                                                                                         Claims
                                                                         Claims
    73,539         $65,910,208            100               $90,255        43            $14,829


                              Estimated Value of Unallowable Costs
                     (Limits Calculated for a 90-Percent Confidence Interval)

                            Point estimate              $10,904,731
                            Lower limit                   7,780,626
                            Upper limit                  14,028,836




New York City Medicaid Orthodontic Claims (A-02-11-01003)                                          9
                     APPENDIX D: DEPARTMENT OF HEALTH COMMENTS 





             ================~~ ~~~~~~K lc=================
              N irav R. Shah, M.D., M.P.H. 	
              Commissioner 	
                                                      HEALTH                                                Sue Kelly
                                                                                         Executive Deputy Commissioner




                                                                      August 15, 20 13




             Mr. James P . Edert
             Regional Inspector General for Audit Services
             Department ofHealth and Human Services - Region II
             Jacob Ja vitz Federal Building
             26 Federal Plaza
             New York, New York 10278

                                                                      Ref. No A-02-11 -0 1003

             Dear Mr. Edert:

                   Enclosed are th e New York State Departm ent ofHealth' s comments o n the U.S .
             Department of Health and Human Services, Office ofinspector General' s Draft Aud it Report
             A-02-11-01 003 entitled, "New York Improperly C laimed Medicaid Reimbursement for
             Orthodontic Services to B eneficiaries in New York C ity."

                      Thank you fo r the opport unity to comment.

                                                                      Sincerely,

                                                                      Michael J. Nazarko

                                                                      Michael J. Nazarko
                                                                      Deputy Commissioner
                                                                       for Administration

             enclosure

             cc: 	    Jason Helgerson
                      James C. Cox
                      Diane Christensen
                      Lori Conway
                      Rona ld Farrell
                      OHIP Aud it BML




                                                       HEALTH. NY.GOV
                                                        facebook .com/NYSDOH
                                                       twitter.com/HealthNYGov




New York City M edicaid Orthodontic Claims (A -02-11-01 003)                                                             10
                                 New York State Department of Health 

                                           Comments on the 

                            U.S. Department of Health and Human Services 

                                      Office of Inspector General 

                              Draft Audit Report A-02-11-01003 entitled, 

                            "New York State Improperly Claimed Medicaid 

                               Reimbursement for Orthodontic Services 

                                  To Beneficiaries in New York City" 


            T he followi ng are t he New Yo rk State Departme nt of Health's (Department) comments in
            respo nse to t he U.S. Department of Health and Human Services, Office of Inspector General
            (OI G) Draft Audit Report A-02 -11 -0 1003 ent itled , "New York State Improperly Claimed
            Medicaid Reimbursement fo r Orthodontic Services To Beneficiari es in New York Ci ty."

            Recommendation #1:

            Refun d $7,780,626 to t he Federa l Governme nt.

            Response # 1:

            The Office of the Medicai d Inspector General (OMIG) will review and recover fun ds as
            appropriate.

            Recommendation #2:

            Strengthen guidance and provider education activities related to authorizi ng cont inuing t reatment
            and maintaining adequate documentation.

            Response #2:

            The Department wo uld like to offer additi onal and clarifyi ng informatio n in response to the
            OIG's d raft report. T he report states th at providers were not adeq uately informed of the annual
            review requirement for continuing orthodontic treat ment. However, OIG also acknowledges that
            the New Yo rk City Departme nt of Healt h and Mental Hygiene' s (NYC DOHMH) Orthodonti c
            Review Program (ORP) stressed the annu al review requireme nt t hrough their ind ividual ized case
            t reatment approva l letters to providers and in their own educational materials. The Department
            reviewed 13 of the OIG's "disallowed cases." All offices reviewed confirmed that they knew
            annual reviews were necessary. Also, the Depart ment enforced th is req uirement through the
            review of outli er orthodontic treatm ent claims duri ng t he aud it period.

            While orthodo ntist providers did understand t hat the annual review was requ ired under State
            regulations, so me orthodontists failed to ensure that it was completed in a ti mely manner by a
            screening center per the policies, ru les and regul at ions of the Department at the time. When
            potential violat io ns come to t he attentio n of the Department, un de r 18 NYCRR (including
            Sections 515, 5 17, 518, 519 and 521) appropriate procedures and actio ns are taken. Factors
            considered are the nature of the violat io ns, adverse impact on recipients, amount of damages to
            the program, miti gat ing circumstances, and the previous record of the provider. Therefore, under
            State regulations, violat ions of t he annual review procedures and requirements as admi nistered




New York City Medicaid Orthodontic Claims (A -02-11-01003)                                                         11
             by the ORP do not render the ongoing orthodontic treatment services automatically non­
             reimbursable under the 10 NYCRR regulations being applied by the OIG.

             The orthodontic regulations were revised in 2012 to allow flexib ility in adopting current
             standards of practice on an ongoing basis and to reflect the centralization over many years of the
             program management from local districts to the Department The annual review of active
             treatment continues to be required, per the Department's Dental Provider Manual. The
             Department now has the authority to require a more frequent review if needed. For the NYC
             cases begun prior to October 2012, the Department is requiring and reviewing documentation of
             progress for annual approval of continuing treatment.

             The admini stration of the Medicaid orthodontic benefit in New York State has changed
             significantly as a result of Medicaid Redesign Team initiati ves. Speci fi call y, effective October 1,
             2012, orthodontia is included in the Medicaid managed care benefit package for all new cases
             statewide. In addition, as of October 1, 2012, all existing orthodontic cases statewide a nd any
             new fee for service cases are being managed by the Department's Office of Health Insurance
             Programs in Albany. The NYC DOHMH ceased operation of its ORP at the time of this
             transition. T he vast majority of children are enrolled in a Medicaid managed care plan and so
             their orthodontic benefit is administered and services authorized by the plans through their
             provider networks.

             In summary, through the move to managed care, assumption and centralization in Albany of
             existing NYC cases, updated provider manu al and other provider education materials, the
             Departme nt has strengthened oversight, g uid ance and provider education acti vities regarding
             continuing orthodontic treatment.




                                                               2




New York City M edicaid Orthodontic Claims (A -02-11-01 003)                                                           12
